No. 20-18

 

IN THE

Supreme Court of the Anited States

ARTHUR GREGORY LANGE,

v.

Petitioner,

STATE OF CALIFORNIA,

Respondent.

CERTIFICATE OF SERVICE

I, Brianne J. Gorod, do hereby declare that on December 11, 2020, as required

by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the

Brief of Constitutional Accountability Center as Amicus Curiae in Support of

Petitioner on counsel for each party to the above proceedings as follows:

Brian Halligan Fletcher
Stanford Law School
Supreme Court Clinic

559 Nathan Abbott Way
Stanford, CA 94805
bfletcher@law.stanford.edu
(650) 724-3345

Counsel of record for Petitioner
Arthur Gregory Lange

Amanda Kelly Rice

Jones Day

150 W. Jefferson Ave., Ste. 2100
Detroit, MI 48226
arice@jonesday.com

(318) 230-7926

Court-appointed amicus curiae in support
of the judgment below

Samuel Thomas Harbourt
California Department of Justice,
Office of the Solicitor General
455 Golden Gate Ave.,

Ste. 11000

San Francisco, CA 94102
Samuel.Harbourt@doj.ca.gov
(415) 510-3919

Counsel of record for Respondent
State of California
 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2020.

 
